OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/CAMBODIA’S
PROGRAM ON RIGHTS AND
JUSTICE II

AUDIT REPORT NO. 5-442-12-003-P
JANUARY 31, 2012




MANILA, PHILIPPINES
Office of Inspector General



January 31, 2012

MEMORANDUM

TO:                  USAID/Cambodia Director, Flynn Fuller

FROM:                Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID/Cambodia’s Program on Rights and Justice II
                     (Report No. 5-442-12-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

This report contains two recommendations to assist the mission in improving the efficiency and
effectiveness of the Program on Rights and Justice II. On the basis of information provided by
the mission in its response to the draft report, we determined that management decisions have
been reached on Recommendations 1 and 2. Please provide the Audit Performance and
Compliance Division of USAID’s Office of the Chief Financial Officer with evidence of final action
to close these recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
8th Floor, PNB Financial Center
Pres. Diosdado Macapagal Blvd.
1308 Pasay City, Philippines
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Finding ............................................................................................................................. 5

     The Majority of Performance Indicators Lacked End-of-Program Targets.............................. 5

Evaluation of Management Comments.................................................................................... 7

Appendix I—Scope and Methodology ..................................................................................... 8

Appendix II—Management Comments .................................................................................. 10
SUMMARY OF RESULTS
After decades of conflict, Cambodia is experiencing peace and strong economic growth that has
lifted many Cambodians out of poverty.1 Fundamental improvements in governance, however,
are still needed to secure the country’s democratic transition and to provide a better future for
the Cambodian people. While Cambodia has made progress in reforming its legal system, the
country still lacks a professionally run judiciary. U.S. foreign assistance in this area has focused
on supporting civil society groups advocating for political and legal rights—especially land
rights—while remaining engaged in reforms to increase government accountability.

To carry out this work, USAID/Cambodia signed a $20 million cooperative agreement with the
East-West Management Institute, Inc. to implement the Program on Rights and Justice II,2
covering the 5-year period from October 1, 2008, to September 30, 2013. This program seeks
to strengthen the rule of law and promote respect for human rights in Cambodia so that citizens
can live in a transparent, just, and peaceful society.

The program has five main objectives: (1) to improve the collection and use of justice systems
data, (2) to improve the quality of legal education at Cambodia’s universities and other
institutions, (3) to promote more transparent and efficient judicial administration, (4) to
strengthen constituencies supporting justice sector reform, and (5) to improve access to legal
assistance. As of March 31, 2011, the program’s cumulative obligations totaled $14.8 million,
and disbursements totaled $11.8 million.

The objective of this audit was to determine whether the program was achieving its goal of
strengthening the foundation for reform of the justice sector in Cambodia.

For the areas reviewed, the audit team determined that the program was making progress in
achieving its five main objectives. Examples of notable achievements to date under each of
these objectives include the following.

    Improving the Collection of and Access to Justice Systems Data. To improve the
    collection and availability of meaningful data related to the Cambodian judicial system, the
    program launched the Justice Documentation Training Program, an intensive 6-month
    training series designed to develop Ministry of Justice (MOJ) staff skills to improve Ministry
    information systems. Program activities included the creation of several databases,
    including a Justice Statistics Database to track court information such as caseloads and
    clearance rates. The program also developed an MOJ Trafficking Database that tracks all
    human trafficking prosecutions in the country. Use of this database reportedly resulted in a
    200 percent increase in documented trafficking prosecutions and convictions, prompting the
    MOJ to request a similar database for tracking criminal cases. The program also created a
    Web-based database that tracks and maps human rights violations, government land
    concessions, and other information.


1
 Source: Cambodia U.S. Foreign Assistance Performance Publication Fiscal Year 2009 (page 1)
2
 Program on Rights and Justice II carries out activities similar to those implemented under the original
Program on Rights and Justice, implemented by East-West Management Institute, Inc. from 2003 to
2008.


                                                                                                      1
Improving Legal Education. To improve the quality of education provided to the next
generation of legal professionals, the program provided training at several institutions,
including Cambodia’s Royal University for Law and Economics. This training included
classes for law professors on interactive teaching techniques, workshops in basic advocacy
skills for law students and professors, and seminars devoted to developing skills in
alternative dispute resolution. In addition, the program developed a textbook on alternative
dispute resolution for use at universities and other institutions. The program also helped
develop the country’s first legal academic journal, the Cambodian Yearbook of Comparative
Legal Studies (pictured below).




           An alternative dispute resolution textbook (left) and a legal academic
           journal (right) are two products developed under the program’s Legal
           Education component. (Book images furnished by the program)



Promoting Transparency and Efficiency.                To improve public understanding and
knowledge of the Cambodian judicial system and basic rights, the program developed and
distributed for public display a series of information boards and posters (like the one pictured
following this paragraph) on the roles and duties of officials and persons involved in court
cases, as well as information on court fees, judicial procedures, and citizen rights.
Program-supported activities also contributed to the production of a television series called
“Scales of Justice,” which seeks to provide the public with information on legal rights and
procedures. In addition, the program worked to improve court administration. A key output
in this area involved the creation of a database of Supreme Court judgments from 1996 to
2006―the first such collection available to legal professionals and academics in
Cambodia―which has enabled users to have access to a large body of jurisprudence. In an
interview with the audit team, one Supreme Court Justice stated that, with the creation of
this database, prior Supreme Court decisions are now documented electronically and can
be distributed and made available to everyone through the Internet, which will be helpful not
only for lawyers and judges, but also for students.


                                                                                              2
   Above is an example of one in a series of
   public information posters produced by
   the program on the roles and duties of
   officials and persons involved in court
   cases, including the accused, the victim,
   witnesses, the prosecutor, and the trial
   judge. According to data maintained by
   the implementer, these posters are now
   displayed at every trial court in the
   country, like the one at right. (Poster and
   photo furnished by the program)



   Strengthening Constituencies for Judicial Sector Reform. To help communities address
   and resolve specific human rights issues, the program provided subgrants to 12 human
   rights and grassroots civil society organizations that investigate human rights violations,
   monitor detention centers and prisons, conduct training to raise awareness of human and
   legal rights, and provide legal representation to victims of human rights abuses. From
   January 2009 to September 2010, these organizations investigated 1,052 cases of human
   rights violations, which included 418 cases of major land disputes, many resulting from
   forced evictions, land grabbing, and people displaced because of land concessions made to
   private owners by the state. Of the 46,620 families involved in these land disputes, some
   9,600 families benefited from settlements brokered by program-supported organizations
   involving about 44,523 hectares of land.

   Improving Access to Legal Assistance. To strengthen the capacity of Cambodia’s legal
   aid providers, the program has provided grants totaling approximately $1.4 million to six
   local partners who provide legal aid to indigent clients. Thanks to this financial support, the
   legal aid providers have been able to work on 4,150 cases, involving 16,710 beneficiaries.
   Their efforts have reportedly resulted in a reduction in excessive pretrial detention periods
   and in a reduction in the number of juveniles being detained longer than the period of their
   sentences. For example, program data for a sample of beneficiaries (clients) who were in
   pretrial detention showed that within 3 weeks the majority were released or tried after
   receiving legal assistance under the program.

However, the audit could not determine whether the mission was achieving its overall goal
because:

   The majority of performance indicators lacked end-of-program targets (page 5).

                                                                                                3
The report recommends that USAID/Cambodia require the program implementer to:

1. Establish end-of-program targets for all of the program’s performance indicators (page 6).

2. Revise the format of its quarterly progress reports to compare data reported under individual
   performance indicators with applicable end-of-program targets (page 6).

A detailed discussion of the audit finding appears in the following section. The scope and
methodology are described in Appendix I. USAID/Cambodia’s written comments on the draft
are included in Appendix II. Our evaluation of these management comments is included in the
report on page 7.




                                                                                                4
AUDIT FINDING
The Majority of Performance Indicators
Lacked End-of-Program Targets
USAID’s Automated Directives Systems 203.3.4.5 states that, for each indicator in a
performance management plan, the development objective team3 should set performance
targets specifying a planned level of result to be achieved by the end of the development
objective period. The development objective teams may also set targets for the interim years.
Furthermore, the program agreement requires that the implementer report details of the
progress achieved, including progress against each performance indicator target.

However, the audit found that the implementer had not established end-of-program targets for
the majority of the program’s performance indicators. Of the 14 performance indicators listed in
the program’s updated performance monitoring plan and in effect at the time of the audit, only 5
had end-of-program targets established. Among the nine without targets were several key
performance indicators, including Increased public awareness on key issues related to what
CSOs are advocating, which was to be based on the results of a survey to be conducted both at
the midway point and at the end of the program. This indicator was intended to measure the
effectiveness of program efforts to promote public awareness of specific issues being advocated
by civil society organizations (CSOs)―awareness achieved partly through public display of
program-designed posters like the one shown below.




                      This scene is from a poster designed to educate members
                      of the public about their legal rights in acquiring ownership
                      of state-owned land. (Poster furnished by the program)

3
  As stated in USAID’s Automated Directives Systems 201.1 (b), USAID uses bilateral development
objectives to provide comprehensive long-term support to achieve clearly defined foreign assistance
results. These objectives are established for USAID programs covered by joint country assistance
strategies as well as for programs covered by USAID strategic plans. According to ADS 200.2 b and
200.2 d, the head of each USAID Mission and bureau/independent office establishes development
objective teams that have the capacity to manage foreign assistance programs. Development teams
conduct analyses as required to identify key opportunities and constraints in the priority areas in which
they work; plan and design development objectives to achieve tangible development results and impact;
manage and monitor the implementation of these development objectives; and report on and evaluate
performance.


                                                                                                       5
In addition to the lack of end-of-program targets, the audit team noted that the implementer’s
quarterly progress reports, which summarized the results of activities taking place during the
period under each performance indicator, failed to show the progress achieved against the end-
of-program targets that had been established. For example, the latest quarterly report, covering
the quarter ending March 31, 2011, provided a detailed narrative account of the activities and
achievements for the current quarter, but did not compare the reported results data for that
period with related annual or end-of-program targets.

These monitoring deficiencies existed, in part, because the mission had not taken steps early in
the program to (1) verify that all performance indicators had end-of-program targets established
and (2) require the implementer to report on progress achieved against these targets in its
quarterly progress reports. Consequently, the implementer was under the false impression that
such targets either did not have a major bearing on the program or were of limited use. In an
interview, an implementer official stated that the lack of targets did not represent a significant
detriment to the program since the implementer based its work on annual work plans that the
mission approved. The official explained further that these work plans were developed each
year based on what the implementer estimated it could accomplish that year and, once
approved by the mission, were used as the basis for the activities performed and reported on
during the year.

Although annual work plans represent a key management tool, it is important that the results of
the activities carried out in connection with these plans be reported in the context not just of
annual but also of end-of-program targets so that the mission can effectively measure the
progress achieved toward these long-term targets. By focusing on results in the context of the
annual work plans alone, it is difficult to assess how current results mesh with what is expected
to be achieved by the end of the program—i.e., how well the program is performing. A short-
term focus can mask shortfalls related to specific end-of-program targets and undermine
mission efforts to hold the implementer accountable for achieving those targets. Likewise, if no
such targets exist, the implementer will be even less likely to achieve the level of outputs USAID
originally desired or envisioned by the end of the program. To avoid both of these situations
and help ensure that the implementer achieves the results intended under each indicator by the
end of the program, the audit team recommends the following.

   Recommendation 1. We recommend that USAID/Cambodia work with the implementer
   to develop and document end-of-program targets for all of the active performance
   indicators under the mission’s Program on Rights and Justice II.

   Recommendation 2. We recommend that USAID/Cambodia require, in writing, the
   implementer of the Program on Rights and Justice II to revise the format of its quarterly
   progress reports to compare data reported under individual performance indicators with
   applicable end-of-program targets.




                                                                                                6
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report and
determined that management decisions have been reached on Recommendations 1 and 2.

For Recommendation 1, the mission plans to work with the implementer on the revision of the
current performance management plan (PMP) to include end-of-program targets for all active
indicators. The mission expects to complete the revised PMP by March 30, 2012. On the basis
of this plan, we conclude that a management decision has been reached on this
recommendation.

For Recommendation 2, the mission, on January 4, 2012, instructed the implementer by e-mail
to revise the format of its quarterly progress reports to compare data reported under the
individual performance indicators with applicable end-of-program targets, as outlined in the
forthcoming revised PMP. Also, a further instruction was sent to the implementer on
January 11, 2012, to include in its annual progress reports more details on the achievement of
goals. According to the mission, the implementer acknowledged the instructions and agreed
that its FY 2012 second quarterly report, which will be completed by May 31, 2012, as well as all
subsequent quarterly and annual progress reports, will contain the detailed information. On the
basis of these actions, we conclude that a management decision has been reached on this
recommendation.




                                                                                               7
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis. The
purpose of this audit was to determine whether USAID/Cambodia’s Program on Rights and
Justice II was achieving its goal of strengthening the foundation for reform of the justice sector
in Cambodia.

To implement the program, USAID/Cambodia entered into a $20 million cooperative agreement
with the East-West Management Institute, Inc., covering a 5-year period from October 1, 2008
to September 30, 2013. As of March 31, 2011, the program’s cumulative obligations totaled
$14.8 million, and disbursements totaled $11.8 million.

The audit covered program activities over a 2.5-year period, from program inception to
March 31, 2011. Audit fieldwork was performed at the USAID/Cambodia mission and at the
offices of the implementer and subimplementers, all located in Phnom Penh, from June 27 to
July 22, 2011. During the fieldwork, the audit team interviewed key officers of two Government
of Cambodia ministries (Ministry of Justice and Ministry of Interior), members of the Cambodia
Judiciary (including a Supreme Court Justice), officials from the Cambodian Bar Association in
Phnom Penh and officials of a public law university supported by the project. The audit team
also conducted field trips through seven Cambodian provinces—Kompong Thom, Siem Reap,
Banteay Mean Cheay, Pursat, Kompong Speu, Kompong Som, and Kampot. During these
trips, the team visited the field offices of eight subimplementers and interviewed project staff and
selected beneficiaries. The team also met with officials of and inmates at the Kompong Thom
prison.

In validating reported performance results data, the audit team tested reported results related to
six selected performance indicators, checking the data reported during the period covered by
the audit against supporting records on file. Items included in this testing were selected based
on a judgmental sample. As a result, the results and overall conclusions related to this testing
were limited to the items tested and could not be projected to the entire audit universe.

As part of the audit, the audit team assessed relevant controls that the mission used to manage
the program and ensure that its implementer was providing adequate oversight of program
activities. The assessment included controls related to whether the mission had (1) conducted
and documented site visits to evaluate progress, (2) approved the implementer’s annual
implementation plans, (3) reviewed quarterly progress reports submitted by the implementer,
and (4) compared reported progress with planned progress and the mission’s own evaluations
of progress. Additionally, the team examined the mission’s FY 2010 annual self-assessment of
management controls, which the mission is required to perform to comply with the Federal
Managers’ Financial Integrity Act of 1982,4 to determine whether the assessment cited any
relevant weaknesses.

4
    Public Law 97-255, as codified in 31 U.S.C. 3512.


                                                                                                  8
                                                                                      Appendix I



Methodology
To determine whether the program was achieving its goals, the audit team interviewed key
personnel from USAID/Cambodia, the implementer and its subimplementers; government
officials, including members of the Cambodian Judiciary; and various beneficiaries. The team
also reviewed relevant documents at both the mission and implementer’s offices. These
documents included the cooperative agreement (including subsequent modifications) between
USAID/Cambodia and the implementer, a data quality assessment, performance management
plans, annual work plans, quarterly progress reports, evaluation reports, and financial reports.

The audit team focused on six performance indicators in the performance management plan to
verify the accuracy and reliability of the reported performance data. The team interviewed
mission and implementer staff regarding processes for collecting, verifying, and reporting
performance results.

To test the reliability of the reported project results, the audit team reviewed the results data
reported under the sampled six performance indicators from the inception of the program to
March 31, 2011. This process entailed a review of the cumulative results data contained in the
program’s quarterly progress report indicator charts for the quarter ending March 31, 2011. This
data was checked against the figures recorded in the program’s database and supporting
source documents on file with the implementer. Based on tests conducted, the audit team
found the data in the program’s database to be reliable.

In addition, site visits were conducted to obtain input from program stakeholders in the field,
including the implementer’s and subimplementers’ field personnel and project beneficiaries, and
to inquire about program-related activities carried out in the seven selected provinces.




                                                                                               9
                                                                                     Appendix II



MANAGEMENT COMMENTS



                                                                                January 11, 2012



MEMORANDUM

TO:                   William Murphy
                      Regional Inspector General, Manila

FROM:                 Flynn Fuller /s/
                      Mission Director, USAID/Cambodia

SUBJECT:              Audit of USAID/Cambodia’s Program on Rights and Justice II (Audit
                      Report No. 5-442-12-00x-P)

This memorandum conveys USAID/Cambodia’s management response to the above referenced
audit report of the Program on Rights and Justice II dated December 16, 2011. The Mission
thanks the audit team for its professionalism and concurs with the two recommendations. The
Mission’s responses to the RIG’s specific audit recommendations are detailed below.

Recommendation 1: We recommend that USAID/Cambodia work with the implementer to
develop and document end-of-program targets for all of the active performance indicators under
the mission’s Program on Rights and Justice II.

       USAID/Cambodia agrees with this recommendation. The Mission will work with the
       implementer East West Management Institute to develop and document end-of-program
       targets for all of the active performance indicators under the Program on Rights and
       Justice II. Specifically, the implementer will collaborate with the program’s Agreement
       Officer’s Representative (AOR) to revise the current performance monitoring plan (PMP)
       to include end-of-program targets for all active indicators. The revised and finalized
       PMP will be completed by no later than March 30, 2012.

Recommendation 2: We recommend that USAID/Cambodia require, in writing, the implementer
of the Program on Rights and Justice II to revise the format of its quarterly progress reports to
compare data reported under individual performance indicators with applicable end-of-program
targets.

                                                                                              10
                                                                                     Appendix II



       USAID/Cambodia agrees with this recommendation. On January 4, 2012, the Program
       on Rights and Justice II’s AOR instructed the implementer East West Management
       Institute via email to revise the format of its quarterly progress reports to compare data
       reported under individual performance indicators with applicable end-of-program targets,
       as outlined in the forthcoming revised PMP. In addition, the AOR provided further
       instruction to the implementer via email on January 11, 2012. In those instructions, the
       AOR requested that the East West Management Institute include a summary in its annual
       progress reports that goes into more detail of its advancements in satisfying end-of-
       program goals, and explains how it is on track or how the project will shift emphasis in
       the outlying years to ensure goal achievement. The East West Management Institute
       acknowledged these instructions and agreed that its FY 2012 Second Quarterly Report, as
       well as all subsequent quarterly and annual progress reports, will contain said
       information. The first report that includes this data will be completed by no later than
       May 31, 2012.

Please let us know if we can clarify any comments. We look forward to strengthening the
project through the implementation of the audit’s recommendations.




                                                                                              11
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
